HUMAN CAPITAL

Opportunities Exist
to Strengthen
Controls over
Recruitment,
Relocation, and
Retention Incentives




       OIG-12-5 Employee Incentive Payments
           Office of the Inspector General
       U.S. Government Accountability Office
                  Report Highlights

August 2012

HUMAN CAPITAL
Opportunities Exist to Strengthen Controls over
Recruitment, Relocation, and Retention
Incentives
Objectives
This report examines the extent to which GAO’s Human Capital
Office had (1) established effective internal controls and oversight
mechanisms to ensure that its recruitment, relocation, and retention
incentives were consistent with GAO policy, and (2) aligned its use
of these incentives with the agency’s human capital strategic plan.

What We Found
GAO policy authorizes the use of recruitment, relocation, and
retention incentives either to encourage individuals to accept a
position that would otherwise be hard to fill or to retain an essential
employee with unusually high or unique qualifications who is likely
to leave the agency without a monetary incentive to stay. For
calendar years 2009 through 2011, GAO used this authority for
recruitment and retention purposes and made incentive payments
of more than $1.8 million. Our audit of the internal controls and
oversight for the incentive payment award process identified
opportunities to strengthen controls, including the need to maintain
appropriate supporting documentation; provide additional guidance
to human capital staff to ensure proper, timely, and accurate
execution and recording of administrative actions; and provide
effective monitoring and oversight. In addition, we identified an
opportunity for GAO to help ensure that incentive payments support
agency recruitment and retention goals by establishing a clear
agency-wide strategy and results-oriented performance measures
for these payments.

What We Recommend
The Office of the Inspector General (OIG) made seven
recommendations to help ensure consistency and adherence to
GAO policy related to recruitment, relocation, and retention; to
better align the use of these incentives with strategic human capital
and workforce planning goals and objectives; and one
recommendation to help management monitor and evaluate the
effectiveness of controls. GAO agreed with our recommendations.



                                      OIG-12-5 Employee Incentive Payments
                                           United States Government Accountability Office




Memorandum
Date:         August 28, 2012

To:           Comptroller General Gene L. Dodaro

From:         Inspector General Frances Garcia

Subject:     Human Capital: Opportunities Exist to Strengthen Controls over
             Recruitment, Relocation, and Retention Incentives

In accordance with the law, 1 GAO policy authorizes the use of recruitment,
relocation, and retention incentive payments either to encourage individuals to
accept a position that would otherwise be hard to fill or to retain an essential
employee with unusually high or unique qualifications who is likely to leave the
agency without a monetary incentive to stay. For calendar years 2009 through 2011,
GAO used this authority for recruitment and retention purposes and made incentive
payments of more than $1.8 million. Our audit of the internal controls and oversight
for the incentive payment award process identified opportunities to strengthen
controls, including the need to maintain appropriate supporting documentation;
provide additional guidance to human capital staff to ensure proper, timely, and
accurate execution and recording of administrative actions; and provide effective
monitoring and oversight. In addition, we identified an opportunity for GAO to help
ensure that incentive payments support agency recruitment and retention goals by
establishing a clear agency-wide strategy and results-oriented performance
measures for these payments.

We initiated this audit to determine the extent to which GAO’s Human Capital Office
(HCO) had (1) established effective internal controls and oversight mechanisms to
ensure that its recruitment, relocation, and retention incentives were consistent with
GAO policy, and (2) aligned its use of these incentives with the agency’s human
capital strategic plan. To address our first objective, we analyzed and reconciled
GAO files, including personnel and payment files, and interviewed knowledgeable
officials, with the purpose of identifying the universe of incentive payments awarded
from January 1, 2009, through December 31, 2011, by year and incentive type.
Through our analyses, we determined the data were sufficiently reliable for purposes
of this report. Using this universe of recruitment and retention incentive payments
(GAO made no relocation incentive payments), we then performed a detailed file


1
 Federal Workforce Flexibility Act of 2004, Pub. L. No. 108-411, 118 Stat. 2305 (Oct. 30, 2004);
5 U.S.C. §§ 5753 and 5754.


                                                           OIG-12-5 Employee Incentive Payments
review of documentation intended to support the payment requests, their approval,
and monitoring activities. We also assessed the effectiveness of GAO’s controls and
oversight mechanisms in ensuring compliance with GAO policy for these incentive
payments. To address our second objective, we reviewed GAO’s human capital
strategic planning documents 2 considering best practices and guidance for strategic
and human capital planning developed by GAO and the Office of Personnel
Management (OPM) for federal agencies. 3 We also interviewed GAO staff and
managers knowledgeable about recruitment, relocation, and retention incentives and
human capital management.

We conducted this performance audit from September 2011 through August 2012 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Background

Through the Federal Workforce Flexibility Act of 2004, Congress provided agencies
with enhanced recruitment, relocation, and retention bonus authorities to help
improve the federal government’s competitiveness in recruiting and maintaining a
high-quality workforce. GAO has incorporated certain provisions of this law and
OPM’s regulations 4 into its policy for paying recruitment, relocation, and retention
incentives. GAO Order 2575.1 provides this policy and the general framework of
procedures, controls, and guidance for using these incentives at GAO. 5

All GAO employees, with the exception of the Comptroller General, are eligible for
incentive payments subject to the provisions of the GAO order. According to the
order, a recruitment payment provides an incentive for an individual to accept a GAO
position that would otherwise be difficult to fill. A recruitment incentive may be paid
to a new appointee to GAO or to a former GAO employee who has had a break in
service from GAO of at least 90 days. A relocation payment may be paid to a current
employee who must relocate to accept a position in a different geographic area
when the position otherwise would be difficult to fill in the absence of an incentive. A


2
 GAO, Human Capital Interim Strategic Plan: Fiscal Years 2010 – 2012 “Linking Strategy to Results
Through People,” GAO-10-269SP (Washington, D.C.: Sept. 28, 2009); Management Improvement
Priorities Action Plan (Jan. 21, 2010); and 2011 Recruitment Strategy as included in the Fiscal Year
2011 Recruitment Kick-off Briefing (Aug. 17, 2010, and Sept. 2, 2010).
3
 GAO reports and guidance included: Results-Oriented Government: GPRA Has Established a Solid
Foundation for Achieving Greater Results, GAO-04-38 (Washington, D.C.: Mar.10, 2004); Executive
Guide: Effectively Implementing the Government Performance and Results Act, GAO/GGD-96-118
(Washington, D.C.: June 1996); and Human Capital: Key Principles for Effective Strategic Workforce
Planning, GAO-04-39 (Washington, D.C.: Dec. 11, 2003); and OPM, Key Components of a Strategic
Human Capital Plan (September 2005).
4
 Recruitment, Relocation, and Retention Incentives; Supervisory Differentials; and Extended
Assignment Incentives, 5 C.F.R. Part 575.
5
 GAO, Recruitment, Relocation, and Retention Incentives, GAO Order 2575.1 (June 30, 2006).


Page 2                                                     OIG-12-5 Employee Incentive Payments
retention payment provides an incentive for a current employee to stay with GAO
when the employee’s unusually high or unique qualifications make it essential for
GAO to retain the employee or when GAO has a special need for the employee’s
services and the GAO unit believes there is a high risk that the employee is likely to
leave the agency in the absence of the incentive. In addition to eligibility
requirements, the GAO order provides approval procedures and criteria, service
agreement requirements, policies for determining incentive amounts and
compensation limits, and payment options, as well as provisions for terminating
service agreements and for oversight and review of retention incentive payments.

To request an incentive payment, the unit head of the requesting unit submits a
written recommendation to the authorizing official that describes the difficulty
experienced in recruiting qualified candidates with the competencies required for the
position in the absence of an incentive. This recommendation is to be based on
consideration of a number of factors to determine that a position is difficult to fill,
including: (1) the availability and quality of candidates possessing the competencies
required for the position; (2) the salaries typically paid outside the federal
government for similar positions; (3) recent turnover in similar positions; (4)
employment trends and labor-market factors that may affect the agency’s ability to
recruit candidates for similar positions; (5) special or unique competencies required
for the position; (6) agency efforts to use nonpay authorities, such as special training
and work scheduling flexibilities, to resolve difficulties alone or in combination with a
retention incentive; or (7) the desirability of the duties, work or organizational
environment, or geographic location of the position. The unit head also provides a
recommendation and justification for the amount, payment option, and length of the
required service period.

The Chief Human Capital Officer or designee is the authorizing official responsible
for reviewing and approving incentive recommendations unless the incentive is
recommended by the Chief Human Capital Officer or the amount exceeds 25
percent of basic pay based on critical agency needs. 6 For such exceptions, the
authorizing official is the Chief Administrative Officer or the Comptroller General if
the incentive is recommended by the Chief Administrative Officer. HCO is
responsible for maintaining all documentation sufficient to allow reconstruction of
incentive-related actions.




6
 According to GAO Order 2575.1, basic pay refers to an employee’s total annual rate of pay,
including the geographic zone differential but before deductions and exclusive of premium pay of any
kind.


Page 3                                                    OIG-12-5 Employee Incentive Payments
Incentive Payments for Calendar Years 2009 through 2011

Our analysis showed that from January 1, 2009, through December 31, 2011, GAO
paid more than $1.8 million in recruitment and retention incentives, with
approximately $1.4 million (about 75 percent) paid for employee retention purposes.
GAO paid these incentives to a total of 155 employees—106 for recruitment, 49 for
retention, and none for relocation. Table 1 summarizes the number of employees
and amounts paid for each type of incentive by calendar year.

Table 1: Number of Employees and Dollar Amounts of GAO Incentive Payments for Calendar Years 2009
through 2011

                       Recruitment               Relocation
                        incentives               incentives         Retention incentives             Total incentives
    Calendar Number of              Amount    Number of Amount      Number of       Amount        Number of        Amount
    year     employees                paid    employees   paid     employeesa         paid       employeesa          paid
    2009                    57 $252,893              0        $0             43    $472,309               100     $725,202
    2010                    46      190,500          0         0             43      474,084               89      664,584
    2011                      3      30,000          0         0             44      438,314               47      468,314
    Total                  106 $473,393              0        $0             49 $1,384,707                155 $1,858,100

Source: OIG analysis of GAO data.
a
 Employees may receive retention incentive payments over several years. As a result, the columns showing the total number of
employees receiving these payments and the total number of employees who received incentive payments over the three
years do not total.


GAO used recruitment incentives to hire employees in 16 different occupational
series during the 3 years in our audit. Recruitment incentives were paid most
frequently for the auditing (55 employees received recruitment incentives totaling
$196,000) and computer science (19 employees received payments totaling
$73,393) occupational series. Payments offered for the computer science
occupation—the only occupational series to receive recruitment incentives all 3
years—were $4,000 each. Table 2 summarizes recruitment incentive data by
occupational series for the 3-year period covered in our audit.




Page 4                                                                  OIG-12-5 Employee Incentive Payments
Table 2: Total Employees Hired and Recruitment Incentives Paid by Occupational Series for Calendar
Years 2009 through 2011

         Occupational series                                      2009 through 2011
                                        Employees
                                            paid a        Total    Percentage of employees
                                       recruitment   employees          hired who received a Total recruitment
 Number          Title                   incentive        hired        recruitment incentive   incentives paid
 101             Social science                 1           12                          8%             $5,000
 110             Economist                      6            7                         86%             35,000
 201             Human resource                 2           14                         14%             10,000
                 management
 340             Program                        1           13                          8%              5,000
                 management
 343             Management and                 1           10                         10%              4,000
                 program analysis
 347             GAO analyst                    1          426                          0%              6,000
 501             Financial                      1            2                         50%              7,500
                 administration and
                 program
 511             Auditing                      55           73                         75%            196,000
 801             General engineering            1            4                         25%              5,000
 904             Law clerk                      3            7                         43%             22,500
 905             General attorney               5           12                         42%             38,000
 1301            General physical               1            2                         50%              5,000
                 science
 1510            Actuarial science              1            1                        100%             20,000
 1530            Statistics                     1            1                        100%              4,000
 1550            Computer science              19           19                        100%             73,393
 2210            Information                    7           21                         33%             37,000
                 technology
 Total                                        106          624                         17%           $473,393

Source: OIG analysis of GAO data.



GAO made retention incentive payments during the 3 years in our audit to 49
employees within 13 occupational series but most frequently to employees within the
GAO analyst, social science, economist, and auditing positions. Specifically, GAO
paid a total of $301,175 to 11 GAO analysts, $210,467 to 7 social scientists,
$226,614 to 6 economists, and $134,171 to 7 auditors. For those employees who
received a retention incentive within the 3-year period, the percentage rate used by
HCO in calendar year 2011 to calculate retention incentives ranged from 1 percent
to 25 percent of the employee’s basic salary, with an average rate of 8 percent.
Table 3 summarizes retention incentive data by occupational series for the 3-year
period.




Page 5                                                            OIG-12-5 Employee Incentive Payments
Table 3: Retention Incentives Paid by Occupational Series for Calendar Years 2009 through 2011

          Occupational series                                          2009 through 2011
                                        Employees             Average total        Average percentage Total retention
                                    paid a retention          employees in         of employees paid a      incentive
    Number     Title                       incentive     occupational series        retention incentive    payments
    1          Senior executive                      3                     127                     2.37%            $94,710
               service
    80         Security                              1                      17                     6.00%             22,435
               administration
    101        Social science                        7                      48                    14.48%            210,467
    110        Economist                             6                      56                    10.65%            226,614
    301        Miscellaneous                         1                      42                     2,38 %             8,971
               administration and
               program analysis
    347        GAO analyst                         11                    1,800                     0.61%            301,175
    511        Auditing                              7                     250                     2.80%            134,171
    1001       General arts and                      3                      96                     3.14%             51,291
               informationa
    1529       Mathematical                          3                        7                   42.86%             87,066
               statistics
    1530       Statistics                            1                        5                   20.00%             72,655
    1550       Computer science                      1                     113                     0.89%              3,199
    1811       Criminal                              2                      14                    14.63%             37,451
               investigation
    2210       Information                           3                     164                     1.83%            134,682
               technology
    Total                                          49                    2,738                     1.79%        $1,384,707

Source: OIG analysis of GAO data.

Note: Total retention incentive payments do not add due to rounding.
a
 In 2011, GAO reclassified communications analysts and visual communications analysts previously classified in other series
into occupational series 1001, General Arts and Information.


Improved Controls Needed to Help Ensure Consistency and Adherence to
Incentive Payment Policy

Although GAO Order 2575.1 sets the agency’s policy for awarding incentives and
contains some procedural guidance regarding documentation and oversight, HCO
generally did not have the detailed procedures needed to guide its personnel and
others in ensuring compliance with requirements prescribed by the order.
Specifically, we found that (1) key documentation was not maintained to support
reconstruction of incentive actions or did not support adherence to policy; (2) human
capital staff needed additional guidance to effectively implement, administer, and
oversee use of these monetary tools; and (3) improvements in monitoring and
oversight activities were needed to help ensure that the use of incentive payments
complies with policy requirements and effectively supports human capital plans,
goals, and objectives.




Page 6                                                                   OIG-12-5 Employee Incentive Payments
Documentation Not Maintained or Inadequate

HCO is required to maintain sufficient documentation to allow a reviewer to
reconstruct key actions associated with awarding recruitment and retention incentive
payments, including the original request memorandum, service agreements, and
approval determinations. Our work showed that documentation to support
recruitment actions was generally limited to service agreements. As a result, HCO
could not provide documentation to support 73 percent of the recruitment incentives
paid over the 3-year period in our audit. In contrast, HCO retained more of the
documentation needed to reconstruct key actions regarding retention incentives,
including 71 percent of the original request memorandums. In addition, while GAO
Order 2575.1 requires that legal requirements, including eligibility and compensation
limitations, 7 be met prior to approval of a recruitment or retention incentive, HCO had
no documentation to support compliance with these requirements. However, we
verified that none of the employees who received a recruitment or retention incentive
during the 3 years in our audit had total salary amounts that exceeded the
compensation limits.

Our audit identified the following instances of HCO’s documentation being
inadequate to reconstruct the need for the incentive or to justify the incentive amount
or percentage rate used to calculate the retention incentive amount.

Recruitment incentives. None of the 29 written recommendations we examined
provided adequate justification for the amount awarded. For 23 of the 29
recommendations, HCO relied on an August 2008 memorandum to document
recommendation and approval actions related to recruitment of financial auditors in
fiscal year 2009. The memorandum identified a set dollar amount of $2,500 or
$4,000 per employee, based on the individual’s level of education, but did not
provide a basis for these amounts. Further, the memorandum did not demonstrate
consideration of factors prescribed by the order for determining when a position is
difficult to fill, such as the availability and quality of candidates possessing the
required competencies and the success of recent efforts to recruit candidates for
similar positions. Moreover, while OPM regulations8 permit the use of group
incentives, HCO did not incorporate this provision of the OPM regulations into the
GAO order. According to HCO officials, HCO will consider amending GAO Order
2575.1 to provide an explicit reference to group recruitment incentives. Of the
remaining six recommendations that provided no basis for the recruitment incentive
amount, one also did not show that consideration was given to any of the justification
factors identified in the order as a basis for recommending the recruitment incentive,
as required.



7
 GAO Order 2575.1 states that payment of a recruitment, relocation, and retention incentive is subject
to the aggregate limitation on pay under 5 U.S.C. § 5307 and 5 C.F.R. § 530, subpart B, which limits
payment of bonuses, awards, or other cash payments under title 5 in any given year when payments
to an employee’s basic pay would exceed the rate payable that year for level I of the Executive
Schedule, which is currently $199,700.
8
 5 C.F.R. § 575.105 (b).


Page 7                                                     OIG-12-5 Employee Incentive Payments
Retention incentives. While HCO retained more of the documentation associated
with retention actions than recruitment actions, we found that the documentation did
not always support efficient reconstruction of the actions taken and that justifications
provided for awarding a retention incentive did not always fully address the
requirements of the order. Specifically, we found that HCO had retained the original
request memorandums for 35 (71 percent) of the 49 employees who received a
retention incentive within the 3-year period. However, for 8 of these 35, our analysis
showed that HCO had approved retention incentive rates that differed from those
recommended by the requesting manager and we could find no explanation of how
the approved rate was determined in the file documentation. For 3 of the 8, the
approved percentage rate used to calculate the retention incentive was higher than
the recommended rate.

In another case, we could not reconstruct HCO’s basis for awarding an employee a
bi-weekly retention incentive rate of 6 percent of basic salary with a $3,000 lump
sum payment. HCO had not retained the original request memorandum, but the file
contained a prior approval for 4 percent with no lump sum payment and no
documentation to support the basis for its final approval determination. In addition,
we found 12 original request memorandums that did not contain a basis, such as a
job offer or labor-market factors, for justifying the percentage rate recommended, as
required.

We also found that while HCO had obtained written requests for most of the
retention incentives paid in 2011, HCO approved the continuation of five retention
incentives following its January 2011 review based on oral agreements with the
requesting manager. The only documentation available to reconstruct HCO’s review
of these five incentives consisted of handwritten notations on HCO memorandum
requests for management input regarding continuation, reduction, or termination of
retention incentives. While these notations documented approval, they provided no
basis for the decision or support that consideration was given to any of the required
factors for determining whether a retention incentive was still needed or should be
reduced or terminated.

There are currently no time limits on the use of retention incentives, and GAO’s
order does not require units to provide written certifications to continue a retention
incentive or to demonstrate the cost effectiveness of their extended use;
furthermore, the order does not require that the use of such payments be linked
either to a succession plan that identifies existing staff to develop and fill critical
positions or to a recruitment strategy. To illustrate how these incentives are being
used at GAO, table 4 shows that 20 of the 49 employees who received retention
incentive payments during the 3-year period had received such payments for 5 years
or more.




Page 8                                             OIG-12-5 Employee Incentive Payments
Table 4: Length of Retention Incentives and Number of Employees Receiving Incentives from Calendar
Years 2009 through 2011

 Length of time                              Number of employees                     3-year total paid
 Less than 3 years                                            11                             $158,886
 3 years to less than 5 years                                 18                              544,887
 5 years to less than 8 years                                 10                              224,356
 8 years to less than 10 years                                 2                               76,290
 10 years or more                                              8                              380,288
 Total                                                        49                          $1,384,707
Source: OIG analysis of GAO data.



While retention incentives are important flexibilities for retaining critical skills, these
incentives are not intended to be a replacement for sound succession management
and planning. OPM has proposed regulations that add succession planning to the
list of factors an agency may consider before approving a retention incentive in an
effort to improve administration and oversight and to provide greater emphasis on
the cost and benefits associated with awarding or continuing retention incentives. 9
Specifically, agencies would be required to determine whether a retention incentive
should be provided to an employee or whether other employees identified in the
agency succession plan possess the competencies required for the position and
could perform at the same level with minimal training, cost, and disruption of service.
While GAO is not required to follow OPM guidance, strengthening justifications for
ongoing retention incentive payments and including succession planning among its
justification factors may help ensure that the extended use of retention incentive
payments is cost effective and consistent with agency goals.

Our audit identified several factors that may have contributed to HCO’s difficulty in
providing the documentation needed to reconstruct incentive actions. First, we found
that HCO relied on employees assigned to its various units to process recruitment
incentive actions in compliance with policy and had not identified an accountable
individual for overall administration and oversight of recruitment actions. Second,
HCO had not provided detailed procedures regarding how recruitment incentive
action documentation should be maintained to its staff. Third, HCO had not enforced
GAO’s documentation retention policy, which requires that important records and
files be retained in the agency’s records management system (DM/ERMS). 10 As a
result, documentation pertaining to recruitment incentives was primarily limited to the
service agreements maintained in individual employee personnel files rather than in
the records management system. According to HCO staff, implementation of the HR
Connect human resource system within HCO should help document actions taken, 11


9
 OPM, proposed regulation, Pay under the General Schedule and Recruitment, Relocation, and
Retention Incentives (76 Fed. Reg. 1096, Jan. 7, 2011).
10
  GAO’s Document Management/Electronic Records Management System (DM/ERMS) is the
agency’s official records management system that is intended to capture, preserve, provide ready
access to, and protect the integrity of important documents, records, and files related to GAO’s
business activities, processes, and engagements.
11
  According to HCO staff, HR Connect—the Department of the Treasury’s primary human resource
system—is intended to help integrate and support its human capital functions and processes.


Page 9                                                    OIG-12-5 Employee Incentive Payments
though most of the documentation to support the basis for the recruitment and
retention incentive actions, such as the memorandums recommending the incentive,
job offers, decision determinations, and other supporting documentation, would still
have to be maintained in GAO’s records management system.

During our audit, we also identified a tool used by other agencies that could
potentially help HCO ensure maintenance of key documentation. Other agencies,
such as the Food and Drug Administration and the Internal Revenue Service, use a
standard form to document incentive request and approval actions. A standard form,
with links or references to supplemental documentation ─such as a copy of the job
offer and support for the incentive amount or rate requested, could aid records
maintenance and facilitate documentation of actions taken and by whom, including
validation of eligibility requirements prior to approval of an incentive.

Detailed Procedures Needed

Standard operating procedures can provide detailed guidance and serve as key
controls that enable an organization to provide management with reasonable
assurance that the objective or intent of its policy is achieved. However, HCO has
not developed detailed procedures that describe the actions or processes for its staff
and others to use for consistent implementation of the agency’s recruitment and
relocation incentive policies. Further, although GAO had developed procedures for
retention incentives, we identified several areas where improvements could be made
to help ensure compliance with the order.

Recruitment incentives. As previously discussed, HCO retained only limited
documentation regarding its recruitment incentive activities. In our opinion, the need
for detailed procedures to guide HCO’s administration and oversight activities
contributed not only to the lack of available documentation to reconstruct the basis
for HCO’s recruitment incentive actions, but also to the difficulties we encountered in
obtaining a complete and reliable listing of employees who had received a
recruitment incentive during the 3 years in our audit. The lack of detailed procedures
to timely identify individuals who left GAO prior to completing their agreed service
period may have also contributed to HCO’s failure to identify and properly execute
collection actions for one of the four employees who received a recruitment incentive
within the 3-year period in our audit, but left GAO prior to completing the required
service period. During our audit, GAO’s Chief Human Capital Officer designated a
senior human capital specialist to manage its recruitment incentive activities and
began implementation of a centralized electronic file within the records management
system to capture and retain documentation associated with the recruitment
incentive actions. GAO also initiated efforts to develop detailed procedures for
recruitment incentive payments.

Relocation incentives. HCO does not have detailed procedures for relocation
incentives because the agency has not utilized relocation incentives for years and
currently has no plans to use this incentive. However, since relocation payments are
included in the GAO order and could be used in the future, we believe it would be




Page 10                                           OIG-12-5 Employee Incentive Payments
prudent for HCO to establish detailed procedures at this time rather than wait until
after a decision is made to use this incentive.

Retention incentives. Although HCO has detailed procedures for retention
incentives, we found that procedures outlined for approvals were not consistent with
those required by the order. Specifically, the GAO order states that all retention
incentive requests are to be approved by the Chief Human Capital Officer or
designee unless the incentive is requested by the Chief Human Capital Officer or the
incentive rate request exceeds 25 percent of an employee’s basic pay. However,
HCO’s procedures for retention incentives state that approvals related to Senior
Executive Service (SES) employees are made by the Chief Administrative Officer. In
addition, based on our examination of retention files and procedures, we identified
several areas where additional detail would be helpful in guiding HCO efforts to
ensure compliance with the order. Specifically, we found that HCO’s retention
procedures did not specify

   what documentation should be included in the “business case” or “review
    materials” provided to the Chief Human Capital Officer during the approval
    process. This documentation is important in that it provides the basis for an
    incentive approval. Having a clear description of what should be provided to the
    approving official enforces consistency in applying the procedures and enforces
    compliance with the order.

   the criteria for determining whether there is sufficient basis for (1) the specific
    retention incentive amount or rate recommended or (2) continuation of the
    retention incentive. Clear criteria would help HCO ensure that retention
    incentives are reviewed and approved consistently, are cost effective, and are
    aligned with GAO’s workforce goals and critical needs.

   how final approval of a retention incentive should be documented, including
    decisions that result in rates that differ from those requested or prior approvals,
    or result in an employee receiving both biweekly incentive payments and a lump
    sum payment following completion of a specified period of service.

   the process for identifying and taking appropriate actions regarding employees
    for whom conditions warrant termination of their incentive due to demotion,
    separation for cause, ratings lower than “meets expectations,” or disciplinary
    action.

   the process that should be followed to ensure that each retention incentive is
    reviewed at least annually and that action to reduce or terminate a retention
    incentive as a result of a review is taken promptly.

   records maintenance requirements, including the location of key
    documentation─such as complete lists of employees approved to receive
    retention incentives each year, initial and subsequent justification and approval
    documentation, and other documentation needed to reconstruct actions
    associated with awarding a retention incentive.



Page 11                                              OIG-12-5 Employee Incentive Payments
HCO has initiated efforts to ensure consistency with the order and strengthen the
criteria and processes used to determine percentage rates for incentives and
provide a basis for decisions to continue, reduce, or terminate a retention incentive.

Terminating conditions. Our work showed that HCO needs an integrated process
and procedures to identify actions that require an employee’s incentive to be
terminated. According to GAO policy, incentives can be terminated based on (1)
management need (for reasons such as workforce restructuring or the employee is
assigned to a different position); (2) employee actions, including a demotion or
separation for cause, a rating of less than “meets expectations” on any competency
in the latest performance rating, or a disciplinary action; (3) a change to a higher
position; (4) a promotion; or (5) an employee leaving a position for which an
incentive was approved. We identified one employee receiving a retention incentive
that HCO had taken disciplinary action against in April 2011, but had not terminated
the incentive as required by the order because the HCO staff members responsible
for retention incentive actions were unaware that the disciplinary action had occurred
until we informed them in April 2012. In response to our audit, HCO terminated the
employee’s retention incentive in June 2012 and is in the process of developing a
process and procedures to identify and respond to terminating conditions.

Improvements Are Needed in Monitoring and Oversight Activities

GAO’s Standards for Internal Control in the Federal Government 12 requires that
internal control be designed to assure that ongoing monitoring occurs in the course
of normal operations, which includes periodic evaluations of controls to assess
whether they are operating effectively, regular management oversight activities (for
example, HCO’s requirement for annual reviews of retention incentives), and
periodic reporting to management. According to GAO Order 0201.3, Management
Responsibility for Internal Control, the GAO Controller directs the assessment of and
reporting on the effectiveness of GAO’s internal control in accordance with the
principles of Office of Management and Budget’s (OMB) Circular No. A-123. 13 Our
audit showed that monitoring and oversight activities could be improved to better
ensure that required documentation is maintained, administrative controls over
incentive actions and payments are operating effectively, annual reviews of retention
incentives are performed, and management has the information it needs to
effectively oversee this program and ensure that incentives are used in a manner
consistent with human capital plans, goals, and objectives.

Periodic evaluations of control can be useful in assessing the effectiveness of a
program and compliance with applicable policies and procedures. However, we
found that HCO’s recruitment and retention incentive actions are not reviewed as
part of the agency’s annual management assessment of the effectiveness of the
agency’s internal controls (A-123 review). Moreover, while GAO performs periodic
testing of payroll transactions as part of its internal control review, it has not looked


12
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1
(Washington, D.C.: November 1999).
13
  OMB Circular A-123 Revised, Management’s Responsibility for Internal Control (Dec. 21, 2004).


Page 12                                                  OIG-12-5 Employee Incentive Payments
at certain transaction types, such as incentive payment actions due to the low dollar
value of incentive payments in comparison to GAO’s overall payroll. During the
course of our audit, the manager responsible for the agency’s A-123 review process
stated that recruitment and retention incentives may be included as one of the areas
for review in a future review cycle.

GAO Order 2575.1 requires at least an annual review of each retention incentive
that is paid in equal biweekly installments at the retention incentive percentage rate
to determine whether the incentive should be retained, reduced, or terminated.
However, HCO has not performed annual reviews of each retention incentive as
required. We found that HCO conducted no annual reviews in calendar year 2009 or
2010. Further, although HCO conducted an annual review of 36 retention incentives
in January 2011, HCO excluded three employees from its review even though their
retention incentive had not been reviewed in the past year. According to HCO staff,
one of the three employees was excluded from the review in error. The remaining
two employees were excluded because (1) one was an SES employee even though
GAO policy and retention procedures do not explicitly exclude SES from annual
review and (2) the other had been approved in fiscal year 2010 even though the
approval had occurred almost 14 months prior to the January 2011 review.

During the summer of 2011, GAO evaluated the percentage rates used to calculate
retention incentives for 36 employees receiving retention incentive payments to
identify budgetary savings. The evaluation did not include an assessment of unit
justifications to determine whether a retention incentive should be continued,
reduced, or terminated since HCO had reviewed most of the justifications supporting
retention incentive payments during its January 2011 review. As a result of its
summer evaluation, the percentage rates used to calculate retention payments for
27 employees were reduced by either 1 or 2 points and the rates for 9 employees
remained unchanged because the current retention incentive had been approved
within the last 2 fiscal years or the employee was an SES.

Although GAO evaluated retention incentive rates during the summer of 2011, more
than 18 months have passed since HCO performed an annual review of justifications
to determine whether a retention incentive should be continued, reduced, or
terminated. According to HCO officials, the next annual review of retention
incentives is scheduled to begin August 2012.

Periodic reporting to management is an important control tool that provides
managers with information needed to help perform their program oversight
responsibilities. HCO officials acknowledged that periodic reporting to GAO
executives and management was not performed or required. The lack of visibility of
HCO’s incentive activities by GAO management may have contributed to the
difficulties we encountered at the beginning of our audit in identifying the universe of
employees who had received a recruitment or retention incentive during the 3-year
period and the longevity of retention incentives. In response to our audit, HCO
officials stated that GAO intends to institute periodic reporting to GAO executives
and managers regarding the agency’s use of recruitment and retention incentives.
Data to consider incorporating in these reports include: employee name;



Page 13                                            OIG-12-5 Employee Incentive Payments
occupational series; level of the staff receiving the incentive; the start date pertaining
to the initial incentive; whether a promotion has occurred during the year; whether a
succession plan or recruitment strategy is identified, as appropriate, to mitigate the
need for the incentive payments in the future; and the date of the last review.

Employee Incentives Should Be Fully Incorporated into Strategic Human
Capital Planning

GAO has previously identified the need for federal agencies to ensure that use of
human capital flexibilities—such as recruitment, relocation, and retention incentive
payments—is part of an overall human capital strategy that is clearly linked to the
agency’s program goals. 14 Although GAO recognizes the importance of strategic
human capital management and a results-oriented organizational culture, we found
that the agency’s human capital strategy does not provide a clear approach for the
use of recruitment, relocation, and retention incentive payments or an assessment of
the associated costs and benefits derived from their use. GAO’s current human
capital strategic plan 15 establishes an objective to recruit, develop, deploy, and retain
a diverse, high-quality workforce, and references developing a recruitment strategy
to support near- and long-term staffing requirements and enhancing retention
strategies to ensure they are responsive to employees’ values. However, we found
that the plan does not address how recruiting and retention incentives will be used or
the results expected from their use. Further, the plan does not identify measures
GAO will use to evaluate actual results. Although the agency has a strategic
workforce planning process to continuously analyze and monitor, among other
things, the number and skill mix of its employees and to plan for hiring, attrition, and
promotions, at the time of our audit, the process did not capture data on the use or
cost of recruitment, relocation, and retention incentives.

Moreover, while GAO has performance measures such as new hire and retention
rates, they do not provide a clear assessment of whether incentive payments were
effectively targeted or helped the agency ensure that the benefits derived are
commensurate with their costs and are consistent with strategic human capital and
workforce planning goals and objectives. For example, GAO uses its new hire rate
measure to provide an indication of the extent to which GAO was able to hire the
number of employees it planned to hire within a fiscal year. However, it does not
provide information about whether GAO used recruitment and retention incentives to
attract or retain employees or whether an incentive payment was effective in the
short term (duration of service agreement) or long term (beyond the time period
specified in their service agreement). Similarly, GAO’s retention rate measure
provides an indication of the percentage of people who have not left the agency in
the past fiscal year, but it does not provide an assessment of the effectiveness of
retention incentive payments to retain staff.


14
  GAO, Human Capital: Effective Use of Flexibilities Can Assist Agencies in Managing Their
Workforces, GAO-03-2 (Washington, D.C.: Dec. 6, 2002). As an example, see Human Capital:
Opportunities Exist for FDA and OPM to Improve Oversight of Recruitment, Relocation, and
Retention Incentives, GAO-10-226 (Washington, D.C.: Jan. 22, 2010).
15
  GAO-10-269SP.


Page 14                                                 OIG-12-5 Employee Incentive Payments
We recognize, as GAO previously reported, 16 that measuring the direct effect of
recruitment, relocation, or retention incentive payments on recruitment and retention
trends may be difficult because they are not likely to be the only factor in an
employee’s decision to join or stay with GAO. While incentive payments may
influence an employee’s decision, other factors, such as labor market conditions and
GAO’s standing as one of the best places in government to work, could also affect
these decisions. In prior work regarding student loan repayment programs (another
type of employee incentive), GAO described similar difficulties faced by federal
managers in developing useful, outcome-oriented performance measures and
proposed that agencies collaborate more to develop strategies to identify
performance indicators and measure contributions to specific outcomes. 17 GAO
executive management acknowledged that the agency’s current performance
measures do not provide an assessment of the effectiveness of incentive payments
in recruiting or retaining staff and have initiated efforts to identify data that could be
used to develop appropriate performance measures.

Conclusions

Recruitment, relocation, and retention incentive payments are important flexibility
tools that can help GAO hire, retain, and strategically manage its workforce.
Establishing appropriate internal controls for these tools is essential to help ensure
they are used efficiently and effectively. GAO recognizes the importance of controls
for the incentives program and, in response to our work, has initiated actions to
strengthen its framework of plans, policies, procedures, and oversight processes
pertaining to the use of these important incentives. However, to help further ensure
their effectiveness, we believe GAO should incorporate the use of these incentives,
the results the agency expects to achieve, and the measures that will be used to
assess their effectiveness as part of GAO’s human capital management strategic
planning process.

Recommendations for Executive Action

To help ensure consistency and adherence to GAO policy and applicable statutes
and regulations related to recruitment, relocation, and retention incentives, and to
better align the use of these incentives with strategic human capital and workforce
planning goals and objectives, we recommend that the Comptroller General direct
the Chief Human Capital Officer to take the following seven actions:

1. Update GAO’s recruitment, relocation, and retention incentive policy contained in
   GAO Order 2575.1 to

     a. strengthen justification factors for the continuation of retention incentive
        payments by requiring a timeline or strategy for eliminating, as appropriate,
        the need for future payments, and


16
  GAO-10-226.
17
  See for example, GAO, Results-Oriented Government: GPRA Has Established a Solid Foundation
for Achieving Greater Results, GAO-04-38 (Washington, D.C.: Mar. 10, 2004).


Page 15                                               OIG-12-5 Employee Incentive Payments
   b. include a requirement for periodically reporting to GAO management and
      executives on the agency’s use of these incentives.

2. Consider development and use of a standard form to aid in documenting
   incentive-related actions and maintaining documentation needed to support
   reconstruction of actions taken.

3. Develop and implement detailed procedures for ensuring compliance with
   recruitment and relocation requirements provided in GAO Order 2575.1.

4. Revise retention procedures to address any inconsistencies with GAO Order
   2575.1 and to ensure the completeness of the detailed procedures in support of
   compliance.

5. Establish an integrated process and procedures to identify and terminate, in a
   timely manner, recruitment, relocation, or retention incentives based on the
   occurrence of conditions for termination as defined by GAO Order 2575.1.

6. Establish a process to ensure that each retention incentive is reviewed at least
   annually to determine whether it should be retained, reduced, or terminated, and
   if it is to be continued or reduced, to verify that a succession plan or recruitment
   strategy is in place, as appropriate, to eliminate the need for the incentive in the
   future.

7. Incorporate the use of recruitment, relocation, and retention incentives into
   GAO’s strategic human capital planning to specify a plan for their use, the results
   GAO expects to achieve, and the measures that will be used to assess their
   effectiveness.

In addition, to help management monitor and evaluate the effectiveness of controls
related to recruitment, relocation, and retention incentives, we recommend that the
Comptroller General direct the Chief Administrative Officer to take the following
action:

   Include recruitment, relocation, and retention incentives, as appropriate, in
   periodic internal management reviews of internal controls (A-123 reviews) to help
   ensure that control activities─such as documentation maintenance, and
   transaction execution and recording controls─are functioning properly.




Page 16                                            OIG-12-5 Employee Incentive Payments
Agency Comments and Our Evaluation

The Inspector General provided GAO with a draft of this report for review and
comment. GAO agreed with our recommendations and their comments can be found
in the attachment. The agency also provided technical comments that we
incorporated, as appropriate.

Actions taken in response to our recommendations are expected to be reported to
my office within 60 days.


We are sending copies of this report to the other members of GAO’s Executive
Committee (Chief Operating Officer, Chief Administrative Officer/Chief Financial
Officer, and General Counsel), GAO’s Audit Advisory Committee, and other key
managers. The report is also available at no charge on the GAO website at
http://www.gao.gov/about/workforce/ig.html.

If you or your staff have any questions about this report, please contact me at
(202) 512-5748 or garciaf@gao.gov. Contact points for GAO’s Office of
Congressional Relations and Public Affairs may be found on the last page of this
report. Key contributors to this report were Evelyn Logue; Ann Borseth; Cathy Helm,
Deputy Inspector General; and Michael Volpe, Counsel.




Page 17                                          OIG-12-5 Employee Incentive Payments
Comments from the Government Accountability Office




Page 18                                   OIG-12-5 Employee Incentive Payments
(999808)



Page 19    OIG-12-5 Employee Incentive Payments
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                         Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                         Online at: https://OIG.alertline.com.


                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony

                      Katherine Siggerud, Managing Director, siggerudk@gao.gov,
Congressional         (202) 512-4400, U.S. Government Accountability Office, 441 G Street
Relations             NW, Room 7125, Washington, DC 20548


                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.




                             Please Print on Recycled Paper
